   FEDERAL ELECTION COMMISSION 


    OFFICE OF INSPECTOR GENERAL 





               FINAL REPORT 


Inspection of the Federal Election Commission’s 

              Kastle Key Program 





                December 2011 


            ASSIGNMENT No. OIG-11-02

                 OFFICE OF INSPECTOR GENERAL
                                  TABLE OF CONTENTS


DESCRIPTION                                                   PAGE

Executive Summary         
                                    1      


Background                                                     3       


Objectives, Scope and Methodology                              5       


Inspection Findings and Recommendations 


   A. Kastle Policy Not Updated                                6       


   B. Non-Compliance with Agency Kastle Key Policy             10 


   C. Monitoring of the Kastle Key System Needs Improvement    12 


Conclusions                                                    16          





                                                                      ii
                          EXECUTIVE SUMMARY 

At the Federal Election Commission (FEC), the Administrative Services Division (ASD) has
oversight of the Kastle key program. The Kastle key program provides FEC employees and
contractors with access to the main building entrance, FEC garage, elevators, and access to
restricted offices (i.e. computer rooms, Finance Office). The Kastle program is governed by
Commission Bulletin 2001-10: Kastle Key Procedures, and the Kastle Weblink System is
used by ASD to manage the Kastle key data.

With the exception of the Office of General Counsel (OGC), and the Office of Compliance
(Compliance), requests for Kastle keys are sent to the ASD Kastle key administrators from a
FEC supervisor/manager for each FEC employee, or from the contracting officer technical
representative (CoTR) or point of contact (POC) for contractors. For OGC and Compliance
staff, requests for Kastle keys are made by the respective offices’ administrative assistant; the
administrative assistant contacts the Kastle key administrators to request keys for their office
staff. Only the Kastle key administrators have the authority to access the Kastle Weblink
System to activate, revoke (deactivate), or change Kastle key data. The Kastle key
administrators are also able to view and export reports of Kastle data within the Kastle
Weblink System.

The Office of Inspector General (OIG) conducted this inspection in accordance with the
Council of the Inspectors General on Integrity and Efficiency (CIGIE) Quality Standards for
Inspections and Evaluations, January 2011. The OIG’s objective for this inspection was to
identify any management processes or controls concerning the FEC’s Kastle key system that
can be improved, and provide management with recommendations to help strengthen this
FEC function. The OIG has identified three findings while conducting this inspection: (1)
the Kastle key policy is outdated and does not reflect the current processes and procedures of
the program, (2) the FEC is not in compliance with the current Kastle key policy, and (3)
ASD needs to improve their process for monitoring the Kastle key program to address the
control weaknesses identified during this inspection.

The significant issues identified during detailed testing that resulted in the three findings
listed above include:
•	 The Kastle key policy has not been updated since 2001 and does not reflect the FEC’s
     current processes;
•	 Supervisory approval for several FEC employees and contractors issued Kastle keys
     could not be located;
•	 38 Kastle key users were listed as having more than one active Kastle key in their
     possession;
•	 Kastle key administrators are not revoking returned, lost, or broken keys prior to issuing
     new and/or replacement keys;
•	 Keys are issued to contractors with building access that was not authorized in accordance
     with the contract terms;
•	 Kastle keys are not consistently terminated for separated employees/contractors in a
     timely manner;
•	 Kastle keys located in inventory were still active and listed on the active users’ report as
   assigned to Kastle users; and
•	 ASD does not have an adequate monitoring process established to properly manage the
   Kastle program.

With an outdated policy, an inadequate monitoring process, and weak program controls, the
FEC is not in compliance with the Office of Management and Budget (OMB) Circular A-
123: Management’s Responsibility for Internal Control regarding the Kastle key program.
OMB’s Circular A-123 states “...Federal managers must take systematic and proactive
measures to… (ii) assess the adequacy of internal control in Federal programs and
operations; [and] (iv) identify needed improvements.” However, the FEC has failed to
implement a standard monitoring process that will assess the adequacy of internal controls or
identify any necessary improvements for the FEC’s Kastle key operations. In addition,
ineffective internal controls exposes the FEC to a greater risk of providing unauthorized
access to the FEC building, to include computer rooms that house expensive computer
equipment and important agency data, and access to restricted offices that contain personally
identifiable information (PII). Further, these weaknesses, if uncorrected, hinder ASD from
preventing potential fraud and the ability to detect abuse of agency assets because the FEC is
not exercising the proper controls to ensure Kastle key users are only provided with
authorized access.

The OIG has proposed 15 recommendations to ASD to assist in addressing the identified
findings and issues listed above. Management has agreed to implement 14 of the 15
recommendations.




                                                                                                  2
                               BACKGROUND                          

The Federal Election Commission’s (FEC) Administrative Services Division (ASD) manages
the FEC’s Kastle key program. Agency documentation shows that the FEC has contracted
with Kastle Systems LLC (Kastle) for close to 20 years to provide building access. The
Kastle keys provide FEC employees and contractors access to the FEC’s main front entrance,
garage, elevators, and restricted FEC offices. Kastle keys provide access to restricted offices
and the FEC garage during normal business hours and full building access after normal
business hours, Monday-Friday from 6pm to 6:30am. Kastle keys can also provide 24 hour
access to the FEC building on the weekends. At the start of the OIG inspection, FEC was
operating in their second option year of a 5 year contract with Kastle for fiscal year (FY)
2011. The average annual cost for the FEC’s Kastle service is approximately $24,000.

When the FEC initially contracted with Kastle for building access, the program was
centralized and all program tasks were managed by the ASD. The ASD was required to
communicate with the vendor to activate and revoke (deactivate) keys, and make changes to
the Kastle data. The initial policy that governed the Kastle program was Directive No. 55.

In 2001, Directive No. 55 was superseded with Commission Bulletin 2001-10: Kastle Key
Procedures. Since then, changes have occurred to the Kastle program. The ASD manager
and two ASD staff (Kastle key administrators) assist in managing the Kastle key program.
The Kastle key administrators are now able to independently manage the FEC’s Kastle data
using the Kastle Weblink System. This system allows the Kastle key administrators to
activate keys, enter in user key information (i.e. user name, key number, etc.), revoke keys,
create reports of Kastle data, and view the daily key activity of users for the past 90 days. A
Kastle key can be issued by the Kastle key administrators on a permanent basis or for
temporary use. The Kastle key administrators are also able to place requested access
restrictions on keys, such as Monday–Friday access only, restricted floor access, garage
access, etc.

The Office of General Counsel (OGC) and the Office of Compliance (Compliance) have
assumed administrative responsibilities for keys that are issued to their staff. In prior years
when only ASD maintained Kastle keys, OGC and Compliance experienced frequent
occurrences of keys not being activated prior to being issued to a user, and keys that were
tested to ensure activation but then did not work on the day staff needed to enter the building.
Due to these problems, OGC and Compliance keep an inventory of Kastle keys to distribute
new, temporary, and replacement keys. Although physical keys are maintained by OGC and
Compliance, these two offices are still required to contact the ASD Kastle key administrators
to activate, revoke, or make any changes to their staff’s key information.

According to policy, Kastle keys must be requested by a supervisor or manager for FEC
staff. The supervisor should communicate the need for the key (i.e. access to computer room,
garage, etc.) and the key is then activated accordingly by the Kastle key administrator and
provided to the key user. In addition to FEC employees, FEC contractors are also able to
receive Kastle keys to access the FEC building, garage, and other offices such as the Finance
                                                                                                  3
Office that require Kastle key access. For keys requested for contractors that need to access
the building after hours, the written contract terms must specify that the contractor is allowed
to access the FEC building during non-business hours. The contracting officer’s technical
representative (CoTR) or point of contact (POC) for the contractor should request the Kastle
key from the Kastle key administrators with the appropriate access identified by the contract
terms.




                                                                                               4
       OBJECTIVES, SCOPE AND METHODOLOGY 

Objectives
The Office of Inspector General’s (OIG) objectives for conducting an inspection of the
Federal Election Commission’s (FEC) Kastle key program were to identify any management
processes or controls concerning the FEC’s Kastle key system that can be improved, and
provide management with recommendations to help strengthen this FEC function.

Scope
The scope of the inspection included active Kastle key users as of August 4, 2011 and Kastle
key daily activity data from May 2011 to August 2011.

Methodology – The OIG conducted the following inspection steps:
•	 Reviewed the Administrative Service Division’s (ASD) policies and procedures for
   compliance and adequate management processes and controls.

•	 Interviewed the Office of General Counsel (OGC) and the Office of Compliance
   (Compliance) administrative assistants responsible for issuing keys to their respective
   offices.

•	 Verified if Kastle keys maintained by ASD, OGC, and Compliance were securely stored.

•	 Documented key numbers maintained as inventory for ASD, OGC, and Compliance to
   determine if the keys had all been properly revoked.

•	 Conducted a walkthrough with the ASD manager and Kastle key administrators to
   understand how a Kastle key is requested, issued, activated, tracked/monitored, and
   revoked (deactivated).

•	 Reviewed Kastle key data reports for current active users, revoked keys, and the daily
   Kastle activity report.

•	 Interviewed a FEC team representative from Kastle Systems LLC to gain a better
   understanding of the Kastle Weblink System used to manage the FEC’s Kastle data.

•	 Conducted an employee survey to verify which keys were assigned and in the possession
   of Kastle users who are listed in the Kastle Weblink system as having multiple active
   keys.

•	 Conducted detailed testing to determine if:
   o	 ASD is revoking Kastle keys for separated FEC employees and/or contractors in a
      timely manner;
   o	 All persons listed on the active Kastle key report are current FEC employees or
      contractors; and contractors are provided the appropriate authorized access according
      to contract terms.
                                                                                             5
                      INSPECTION FINDINGS
                            AND     

                      RECOMMENDATIONS 


A.     Kastle Key Policy Not Updated

The current policy that governs the Kastle key program is Commission Bulletin 2001-10:
Kastle Key Procedures. Based on the Office of Inspector General’s (OIG) review of the
policy, and discussions with the Administrative Services Division (ASD), the policy has not
been updated since 2001 and does not reflect the current processes used by the Kastle key
administrators.

Since 2001, ASD has not updated the policy to reflect the current ASD staff who oversee the
program, or to reflect that the Office of General Counsel (OGC) and the Office of
Compliance (Compliance) maintain their own inventory of Kastle keys and distribute
permanent, temporary, and replacement keys to their own staff. In addition, the policy also
fails to document the approval and distribution procedures for Kastle key requests that are
made for contractors who access the building during non-business hours and/or offices with
restricted access.

Further, the policy does not provide the Kastle key administrators with internal procedures
for managing the program. Due to a lack of internal procedures, the OIG identified several
errors and inconsistencies in the Kastle key report data. Without standard internal procedures
to govern the Kastle key program, ASD is lacking consistent and adequate processes to
properly manage and monitor the program. The lack of internal procedures also reduces the
likelihood that the Kastle program can efficiently and effectively function in the event of
extended absences or separations of the Kastle administrators. Although the ASD manager
has expressed to the OIG that the division is in the process of updating the current policy,
these updates have not yet been fully developed and implemented.

Recommendation #1

       The Kastle key policy should be updated as soon as possible to include:

           •   The titles of current ASD positions that manage the Kastle key program;
           •   Instructions for contractor requests for Kastle keys; and
           •   Any other program changes implemented as a result of this inspection.

       Management Response:
       Agree- ASD management was already in the process of drafting a revision to
       the outdated Kastle Key policy before OIG initiated the inspection. Revision
       efforts were put on hold pending the outcome, findings, and recommendations
       of this inspection.
                                                                                              6
     OIG Comments:
     The OIG believes management’s response will address this recommendation once
     fully implemented. The OIG looks forward to reviewing the revised policy to ensure
     it fully addresses this recommendation.

Recommendation #2

     Include guidelines and responsibilities for Kastle administrators and contractors
     needing Kastle keys.

     Management Response:
     Agree- Guidelines for issuing Kastle keys to contractors will be discussed with the
     Office of the Staff Director, to decide how this should be incorporated into the
     revised policy. A COTR or federal employee should be on site with contractors who
     are in the building after hours. In addition, it is the responsibility of the COTR to
     work with the Contracting Officer to ensure appropriate language is included and/or
     revised in contracts authorizing contractors to work after hours.

     OIG Comments:
     Although management agreed with the OIG’s recommendation, the OIG believes that
     management’s proposed action to have a CoTR or federal employee on site with
     contractors who access the building after hours is not practical or feasible for all
     contracting situations. The OIG believes the following current controls, if properly
     monitored, are reasonable to address contractor after hour access: security clearances
     provided by the Office of Personnel Management for contractor background checks;
     ensuring the Contracting Officer has verified contractors have the authority to access
     the FEC building after hours; and ASD providing the appropriate building access
     and/or restrictions according to the contract terms.

Recommendation #3

     Document the procedures that ASD staff must follow when recording Kastle key data
     in the Kastle Weblink System.

     Management Response:
     Agree- ASD will establish a standard format for entering data (required fields)
     into the Kastle system to ensure information is consistent when reflected on
     reports. This will only apply to new or edited data in the Kastle system.

     OIG Comments:
     Although management has generally agreed with the OIG’s recommendation, ASD
     has only agreed to follow standard procedures for new Kastle key requests or for
     current data that requires edits. The OIG believes that ASD should be consistent and
     ensure that all data (current data and new data) in the Kastle Weblink system aligns
     with the new standards once implemented. The OIG believes only if all data is
                                                                                             7
     revised according to the new standard procedures will this recommendation be fully
     implemented.

Recommendation #4

     The updated policy should require that requests for and approvals of Kastle
     keys should be in writing and approvals should be maintained by ASD.

     Management Response:
     Agree- “In writing” requests will be accepted via electronic or hardcopy format.
     Current ASD management is not responsible for missing/inaccurate kastle key
     request/approval records that were granted or obtained prior to March 2011.

     OIG Comments:
     The OIG believes management’s response will address this recommendation
     when fully implemented.

Recommendation #5

     ASD should consider creating a request form for supervisors, managers, contracting
     officer’s technical representatives (CoTRs), and points of contacts (POCs) to
     complete when requesting a Kastle key for an employee or contractor. The required
     information on the form should include (but not limited to):

     •	     date requested;
     •	     key user’s full name;
     •	     identification of the requesting department/division;
     •	     identification if an employee or contractor;
     •	     expiration date (temporary keys);
     •	     access restrictions or additions (i.e. garage, specific floors, etc.);
     •	     signature of approval from supervisors and/or managers for FEC employees to
            access the FEC building during non-working hours; and
     •	     signature of CoTR (when applicable for contractors) verifying contract
            includes the need to have access during non-business hours.




                                                                                          8
     Management Response:
     Agree- The idea for using a standardized format, such as a form, of information an
     individual is required to provide to request a Kastle key was originally proposed by
     current ASD management and discussed during one of the OIG inspection meetings.
     Request form may be created in email format or hardcopy. Signatures may be
     substituted with an electronic signature, or “X” mark for verification of certain
     information.

     OIG Comments:
     The OIG believes management’s response will address this recommendation when
     fully implemented.

Recommendation #6

     Ensure users are aware of all available services and contact information for Kastle
     Systems LLC when issues occur with their physical key that prevents access to the
     FEC building.

     Management Response:
     Disagree- When ASD management contacted a Kastle key representative from our
     Kastle Team to inquire about the hotline service, the representative was not aware of
     such a service and/or any parameters for granting access. ASD management needs to
     do further research and speak with the individual the OIG contacted at Kastle to
     verify how this hotline works and if enough information is being gathered by Kastle
     representatives to validate a person’s identity before allowing access to the building.
     The information OIG provided on how the hotline works, was not sufficient to make
     a final determination on if this service should be advertised and whether or not the
     information gathered by Kastle during the call is an adequate security protocol
     measure for identity verification and granting remote access.

     OIG Comment:
     As previously discussed, the OIG gained our information regarding this service by
     calling the service number identified in the current policy (Commission Bulletin
     2001-10) and speaking with a Kastle System representative who provides the service.
     The OIG believes providing the Kastle contact information and procedures that can
     grant emergency access for approved Kastle users is an important and useful
     customer service tool. This service will be helpful for those users who may
     experience key errors when trying to enter the building on the weekends or need to
     access the building after normal business hours. However, the OIG agrees that
     management should conduct further research regarding this service and verify if
     sufficient and adequate information is required by Kastle prior to granting building
     access.




                                                                                            9
B.     Non-Compliance with Agency Kastle Key Policy

The ASD is not in compliance with the current Kastle key policy. The Kastle key
administrators’ process for assigning, activating, and revoking Kastle keys is not performed
in accordance with the policy’s procedures. The Kastle key policy indicates that
Commission Bulletin 2001-10 was implemented “…to control the assignment of new insert
keys…” However, OGC and Compliance distribute Kastle keys to their staff and these keys
are not properly controlled or managed by ASD. The OIG identified keys maintained by
OGC and Compliance that were located in inventory but also listed as active on the Kastle
key data report. In addition, the documentation maintained by OGC and Compliance was not
kept up to date to reflect current employees issued Kastle keys or the correct keys that were
assigned. Dates recorded by OGC and Compliance for temporary keys did not always match
the Kastle Weblink System data, and Compliance was unable to locate Kastle keys that were
provided to them by ASD. The lack of control over the keys issued by OGC and
Compliance increases the risk that Kastle keys are not revoked in a timely manner, inaccurate
data is stored in the Kastle Weblink System, and employees and/or contractors are granted
building access beyond the authorized time period for temporary keys.

ASD also does not consistently maintain sufficient evidence of supervisory approval for the
issuance of Kastle keys, or evidence that Kastle key users signed for the key acknowledging
receipt of a Kastle key. Based on detailed testing of a sample of 15 Kastle key users, the
OIG identified that:
    •	 For 6 out of the 15 Kastle keys assigned, there was no documentation of supervisory
        approval; and
    •	 For 9 out of 15 Kastle key users, there was no evidence to verify the user signed for
        the receipt of a Kastle key.

Also, keys are not consistently returned and/or immediately revoked for separated employees
and contractors. In addition, Kastle key administrators fail to immediately revoke keys that
are lost or broken. According to Commission Bulletin 2001-10, ASD’s policy is to
immediately revoke Kastle keys; however, contrary to the policy, keys that are returned, lost,
or broken are often not revoked by the Kastle key administrators, but left as active in the
Kastle Weblink System and re-assigned to another user.

Recommendation #7

       The management functions of the Kastle key program should be centralized
       and managed by the Administrative Services Division (ASD) only, to include
       the storage, assignment, distribution, activation, and deactivation of all Kastle
       keys.

       Management Response:
       Agree-this [current] procedure was implemented at some point by previous
       management. Current management agrees that the Kastle key program should be
       soley managed by ASD. Prior to the OIG audit, ASD management requested OGC
                                                                                           10
     and Office of Compliance offices provide updated and accurate information on
     individuals within their group who were issued Kastle keys and reminded them of the
     importance of providing timely updates to the ASD when keys were handed out or
     returned. ASD is currently the only office that is able to activate and deactivate
     Kastle keys in the Kastle system as outlined in the current policy.

     OIG Comments:
     The OIG believes management’s response to have the Kastle key program solely
     managed by ASD, to include the issuance of Kastle keys to all FEC staff and
     contractors will address this recommendation when fully implemented.

Recommendation #8

     The ASD should maintain a record of Kastle key requests by supervisors,
     managers, contracting officer’s technical representatives (CoTRs), and
     contract point of contacts (POCs).

     Management Response:
     Agree- the current policy, however, does not indicate that ASD must maintain a
     record of this information after received, nor does it indicate how long such records
     should be maintained. In addition, employees who park in the garage are required to
     have a Kastle key for access; in this case, supervisory approval is not necessary and
     would not be required for issuance.

     OIG Comment:
     Management has agreed with the recommendation, and the OIG believes once
     fully implemented, the recommendation will be addressed. ASD should follow
     records management procedures for maintaining documentation of Kastle key
     requests.

Recommendation #9

     The ASD should require a signature of receipt from Kastle users for all
     assignments of permanent and temporary keys in accordance with FEC policy.

     Management Response:
     Agree- some type of signature receipt or log will be maintained when Kastle keys are
     issued and the new process will be included in the revised policy.

     OIG Comment:
     The OIG believes management’s response will address the recommendation once
     fully implemented.




                                                                                        11
Recommendation #10

       The ASD should notify the Kastle users of the Kastle key policy and user
       responsibilities when keys are issued (for example, provide policy, require
       signature of understanding and compliance with policies and procedures, and post the
       policy in a convenient place for users to access [i.e. FECNet, the FEC’s Intranet
       site]).

       Management Response:
       Agree- ASD management will examine options for providing this information.

       OIG Comment:
       The OIG believes management’s response will address the recommendation once
       fully implemented.

Recommendation #11

       The ASD should work with the FSA (FEC System Access) team to ensure that
       the Kastle key administrators receive email notification when employees and
       contractors are separated from the FEC through FSA to ensure that Kastle
       keys are returned.

       Management Response:
       Agree- ASD will work with FSA team to ensure we are receiving email
       notifications for ALL employee and departures that are entered into FSA. FSA is
       currently our only source of notification for receiving termination/departure
       dates of employees/contractors.

       OIG Comment:
       The OIG believes management’s response will address the recommendation once
       fully implemented.


C.     Monitoring of the Kastle Key System Needs Improvement

Due to the hiring of a new ASD manager in early 2011, the Kastle key administrators
conducted a review of Kastle keys in March 2011 to document all FEC employees and
contractors who were currently issued a Kastle key and to remove active keys that were no
longer in use. During the inspection, the OIG identified that the review conducted in March
2011 was not completed and the inaccurate data identified by the Kastle key administrators
had not been corrected in the Kastle Weblink system. Through detailed testing, the OIG also
identified that ASD lacks effective monitoring controls over the Kastle key program and
does not have a formal review process or standard monitoring procedures to: (1) identify
data that is inaccurate; (2) detect unusual Kastle key activity; or (3) monitor for data that
should be changed or purged in the system to maintain accurate and current Kastle data.


                                                                                          12
The results of the OIG’s testing revealed:

   •	 employees and contractors who were no longer employed at the FEC had Kastle keys
      active in the Kastle Weblink System;
   •	 Kastle key administrators failed to revoke lost, broken and returned keys prior to
      issuing new and replacement keys to users; and
   •	 38 individuals were listed in the Kastle Weblink System as having more than one
      active key, totaling 81 keys.

Further, the OIG verified through a survey that 39 of the 81 keys identified above were not in
the possession of the users, and the 39 keys were also not found in the physical inventory of
Kastle keys. Although the 39 keys were listed as active in the Kastle Weblink System, the
OIG verified that the keys had no activity during the current 90 day recording cycle of daily
activity for the scope of this inspection. Due to the inability to locate the physical keys, the
OIG believes the 39 keys are prior keys that were issued to the users but have since been lost
or broken and discarded by ASD; however, the Kastle key administrators have not removed
the key data from the Kastle Weblink system.

In addition, the OIG identified 117 keys listed on the revoked Kastle key report as
unassigned since April 2007; however, only 6 of the keys were actually located in ASD’s
physical key inventory. Further, 118 keys listed on the revoked list as “stock” (inventory)
are not included in ASD’s physical inventory of keys. The OIG also identified 73 keys that
were revoked in 2007 and listed as broken or lost on the revoked Kastle key report but never
purged from the Kastle Weblink System.


Recommendation #12

       The ASD should implement a formal on-going monitoring process to verify that only
       current employees/contractors have active Kastle keys, and that users do not have
       more than one active Kastle key at a time.

       Management Response:
       Agree- ASD does not currently receive ongoing personnel information on active
       employees/contractors or effective terminations/separation dates for
       employees/contractors. This lack of resources hinders our ability to maintain and
       implement a formal, standard, ongoing monitoring process to verify holders of active
       kastle keys against an active employee/contractor list. If we are able to receive this
       information on an on-going basis from the appropriate department, we can
       implement the recommended controls. During the course of this inspection, ASD
       already began identifying users who have more than one active Kastle key, and have
       revoked any duplicate keys as appropriate.

       OIG Comment:
       In addition to management’s plans, the OIG would suggest ASD review available
       FEC reports to verify current and terminated FEC employees. For instance, ASD can
                                                                                             13
     review the Office of Human Resource’s list of persons who hire on and separate from
     the agency and the FEC’s staffing report of all current employees. These reports can
     be used as verification documents in addition to working with the FSA team to
     receive email notifications regarding the status of employees and contractors. The
     OIG believes management’s response will address this recommendation once fully
     implemented.

Recommendation #13

     ASD should require that all requests for temporary keys include an expiration
     date. The monitoring process implemented should include procedures for
     ensuring temporary keys are properly tracked, revoked timely, and that the
     system properly reflects the current person using the key.

     Management Response:
     Agree-requiring an expiration date for temporary keys can be addressed in the revised
     policy.

     OIG Comment:
     The OIG believes management’s response will address this recommendation once
     fully implemented. The OIG looks forward to reviewing the revised policy to ensure
     this recommendation has been fully addressed.

Recommendation #14

     ASD should implement a formal annual review process for periodically
     reviewing and cleaning up Kastle data reports. Any revoked Kastle keys that
     are no longer physically in stock, broken/inoperable, or lost should be
     removed from the system after these keys have been inactive for a certain
     period of time (e.g. one year).

     Management Response:
     Agree- ASD can work with Kastle Systems on identifying the best process for
     deleting revoked keys not physically in stock from the Kastle System. ASD did not
     previously have the ability to delete such keys from the system directly; this may be
     an added feature in the new system. Though revoked keys cannot be used to access
     the building after hours, if stale data can be removed from the system, it will allow for
     more efficient management of the Kastle key inventory.

     OIG Comment:
     The OIG believes management’s response will address this recommendation once
     fully implemented.




                                                                                           14
Recommendation #15

     All Kastle key numbers included on the revoked list that are not currently in
     stock and have had no activity since 4/25/2007 should be deleted from the
     Kastle system.

     Management Response:
     Agree- ASD can work with Kastle Systems on identifying the best process for
     deleting revoked keys not physically in stock from the Kastle System. ASD did not
     previously have the ability to delete such keys from the system directly; this may be
     an added feature in the new system. Though revoked keys cannot be used to access
     the building after hours, if stale data can be removed from the system, it will allow for
     more efficient management of the Kastle key inventory.

     OIG Comment:
     The OIG believes management’s response will address this recommendation once
     fully implemented.




                                                                                           15
                                CONCLUSIONS 

The Federal Election Commission (FEC) is at an increased risk of providing unauthorized
access to FEC employees and contractors due to inadequate controls over the Kastle key
program. Failure to establish and implement proper controls to ensure only current FEC
employees and contractors have active Kastle keys, and that building access has been
approved and properly assigned, exposes the FEC to potential fraud and abuse. Since the
Kastle keys grant access to areas such as the FEC computer rooms and access restricted
offices that contain personally identifiable information (PII), it is imperative that the
Administrative Services Division (ASD) have processes and procedures in place to ensure
only those persons who are properly authorized has access to those areas of the building.

According to the Office of Management and Budget’s (OMB) Circular A-123:
Management’s Responsibility for Internal Control:

       “Agencies and individual Federal managers must take systematic and proactive
       measures to … (ii) assess the adequacy of internal control in Federal programs and
       operations; … (iv) identify needed improvements;[and] (v) take corresponding
       corrective action; …”

The Office of Inspector General (OIG) believes that frequent turnover in the ASD manager
position has hindered the ASD from complying with OMB’s guidance in establishing proper
internal controls for the Kastle key program. From summer 2008 to January 2011 alone,
ASD has hired two permanent staff in the ASD manager position and shortly thereafter, both
hired staff separated from the agency. In addition, the ASD had an acting ASD manager for
almost one year, but was also responsible for other FEC managerial duties. The lack of
consistent governance over the Kastle key program has contributed to a lack of program
knowledge, controls, and continuous program monitoring.

Since the recent hire of the current ASD manager, ASD has made efforts to improve the
Kastle key program with the initial Kastle key review in March 2011, and the ASD
manager’s effort to begin developing preliminary changes and updates to the current policy.
The OIG acknowledges these efforts; however, much progress is still required in order for
the FEC to obtain an efficient and effective Kastle key program. The OIG believes
implementation of the recommendations provided in this inspection report will assist ASD in
establishing adequate controls, effective monitoring processes, and reduce the risk of the
agency providing unauthorized access by ensuring building access is properly provided to
FEC employees and contractors.




                                                                                            16
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
